                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Environmental Benefits
                     Being Considered in Award
                     of Great Lakes Grants
                     Report No. 14-P-0004                    November 5, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                 Janet Kasper
                                                     Doug Latessa
                                                     Mary Anne Strasser




Abbreviations

EPA             U.S. Environmental Protection Agency
GLNPO           Great Lakes National Program Office
LAMP            Lakewide management plan
OIG             Office of Inspector General
RAP             Remedial action plan


Cover photo: View of Chicago, a Great Lakes shoreline city. (EPA photo)



 Hotline 	                                      Suggestions for Audits or Evaluations
 To report fraud, waste or abuse, contact       To make suggestions for audits or evaluations, 

 us through one of the following methods:       contact us through one of the following methods:


 email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov.
 phone:    1-888-546-8740                       phone:    1-202-566-2391
 fax:      1-202-566-2599                       fax:      1-202-566-2599
 online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

 write:	   EPA Inspector General Hotline        write:    EPA Inspector General 

           1200 Pennsylvania Avenue, NW 
                 1200 Pennsylvania Avenue, NW
           Mailcode 2431T                                 Mailcode 2410T 

           Washington, DC 20460
                          Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                             14-P-0004
                                                                                                     November 5, 2013
                        Office of Inspector General


                        At a Glance
Why We Did This Review              Environmental Benefits Being Considered in
The U.S. Environmental              Award of Great Lakes Grants
Protection Agency (EPA) Office
of Inspector General (OIG)           What We Found
received a hotline complaint
that Great Lakes Shoreline          EPA Region 5 took prompt action to ensure that             Region 5 plans to
Cities Green Infrastructure         Great Lakes Shoreline Cities Green Infrastructure          assure the $8.5 million
grants were being awarded           grants will support lakewide management plan               of infrastructure
with the only criterion being       activities and will result in reduction of discharges to   grants will result in
population; the potential           the Great Lakes. While the grant announcement did          reducing discharges
environmental benefit was not                                                                  to the Great Lakes.
                                    not specifically require proposed projects to support
the primary factor for              lakewide management plan activities as identified in
determining awards. Our             the competition exemption, Region 5 management agreed that it should have.
objective was to determine          To address the issue, Region 5 developed criteria for staff to use when reviewing
whether the EPA followed its        grant applications. Going forward, staff members will consider how each
policies when announcing            proposed project will support lakewide management plan goals and result in
these grants. The grants were       reducing discharges to the Great Lakes.
designed to help Great Lakes
shoreline cities reduce urban       Since Region 5 has already taken action to address the issue noted, the report
runoff and sewer overflows that     contains no recommendations.
impair Great Lakes water
quality.

This report addresses the
following EPA theme:

	 Protecting water: A precious,
   limited resource.




For further information,
contact our public affairs office
at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2014/
20131105-14-P-0004.pdf
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460


                                                                                     THE INSPECTOR GENERAL




                                           November 5, 2013

MEMORANDUM

SUBJECT:       Environmental Benefits Being Considered in Award of Great Lakes Grants
               Report No. 14-P-0004

FROM:          Arthur A. Elkins Jr.

TO:            Susan Hedman, Regional Administrator
               Region 5

This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the EPA has implemented. This report represents
the opinion of the OIG and does not necessarily represent the final EPA position. Since the agency has
taken sufficient corrective action and this report makes no recommendations, no response is required.

This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Richard Eyermann,
Acting Assistant Inspector General for Audit, at (202) 566-0565 or eyermann.richard@epa.gov;
or Janet Kasper, Product Line Director, at (312) 886-3059 or kasper.janet@epa.gov.
Purpose
                    The U.S. Environmental Protection Agency (EPA) Office of Inspector General
                    (OIG) received a hotline complaint that Great Lakes Shoreline Cities Green
                    Infrastructure grants were being awarded with the only criterion being
                    population; the potential environmental benefit was not the primary factor for
                    determining awards. Our objective was to determine whether the EPA followed
                    its policies when announcing these grants.

Background
                   The EPA invited 22 cities to submit applications for projects to reduce urban
                   runoff and sewer overflows that impair Great Lakes water quality. The total
                   amount of funds eligible for award to all potential recipients is $8.5 million. The
                   amount to be awarded would be based on population and would be awarded on a
                   first-come, first-serve basis. The funding for these grants came from the Great
                   Lakes Restoration Initiative. Eligible cities can use the grants to cover up to 50
                   percent of the cost of:

                           Rain gardens. 

                           Bioswales. 

                           Green roofs. 

                           Porous pavement. 

                           Greenways. 

                           Constructed wetlands. 

                           Stormwater tree trenches. 

                           Other green infrastructure measures installed on public property. 


                   It is EPA policy1 to promote competition to the maximum extent practicable in
                   the award of assistance agreements, and that the competitive process be fair and
                   impartial, that all applicants be evaluated only on the criteria stated in the
                   announcement, and that no applicant receive an unfair competitive advantage.
                   When the estimated total amount of funds expected to be awarded under an
                   announcement exceeds $100,000 (regardless of the amount of any individual
                   awards), open competition among all potentially eligible applicants is required.
                   The policy allows for exemptions to competition when there are urgent and
                   compelling circumstances, national security consideration or public interest.

Scope and Methodology
                   We conducted this audit in August and September 2013 in accordance with
                   generally accepted government auditing standards. Those standards require that
                   we plan and perform the audit to obtain sufficient, appropriate evidence to
                   provide a reasonable basis for our findings and conclusions based on our audit

1
    EPA Order 5700.5A1, “Policy for Competition of Assistance Agreements,” revised July 19, 2012.


14-P-0004                                                                                                1
            objectives. We believe that the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our audit objective.

            To answer the objective, we interviewed staff and managers in Region 5 and the
            Great Lakes National Program Office (GLNPO) and reviewed the following
            documentation:

                  Solicitation for Great Lakes Shoreline Cities Green Infrastructure grants.

                  EPA guidance regarding competition of grants.

                  Exemption from competition for lakewide management plan (LAMP) and 

                   remedial action plan (RAP) activities.
                  EPA actions to address issues identified during the audit.

            Our review was limited to the process for announcing the shoreline city green
            infrastructure grants. As of September 10, 2013, none of the grants had been
            awarded.

Results of Review
            Region 5 took prompt action to ensure that Great Lakes Shoreline Cities Green
            Infrastructure grants will support LAMP activities and will result in reduction of
            discharges to the Great Lakes. While the grant announcement did not specifically
            require proposed projects to support LAMP activities as identified in the
            competition exemption, Region 5 management agreed that it should have. During
            our review, Region 5 developed criteria for staff to use when reviewing grant
            applications that will look for how the proposed project will support LAMP goals
            and result in reducing discharges to the Great Lakes.

            On July 26, 2013, the EPA invited the 22 largest Great Lakes shoreline cities to
            apply for shoreline city green infrastructure grants. To be eligible for the grants, a
            city must directly touch the Great Lakes and have a population greater than
            50,000 people. The amount of funding available to a specific recipient is based on
            the city’s total population; larger cities will receive more money. For example,
            cities with a population of more than 500,000 are eligible for up to $1 million.

            The total amount of funds eligible for award under the Great Lakes shoreline
            cities program is $8.5 million, making it subject to the EPA competition policy.
            In June 2013, the Assistant Administrator for Administration and Resources
            Management approved an exemption from competition for grants to states, tribes
            and local governments in furtherance of LAMP and RAP activities. The
            exemption was to cover activities including the hiring of employees by the
            governmental entity to oversee and implement LAMP and RAP activities; the
            joint development and implementation of RAP and LAMP projects, and RAP and
            LAMP activities that will be conducted on property owned by states, tribes and
            local governments. However, the grant announcement made no reference to RAPs
            or LAMPs, or that the activities being conducted under the grants would support


14-P-0004                                                                                        2
            RAPs or LAMPs. According to the GLNPO Director, the program office assumed
            that activities under the shoreline cities grants would support LAMPs and RAPs,
            and agreed that this should have been included in the grant solicitation.

            On September 4, 2013, OIG staff met with Region 5 management to discuss the
            hotline complaint and compliance with the competition policy. To comply with
            the competition policy, Region 5 management agreed with the OIG that it would
            develop criteria for reviewing the grant applications to ensure that the applications
            addressed environmental results and funded activities were linked to the goals and
            objectives of the LAMPs. Consequently, GLNPO developed criteria for reviewing
            applications for shoreline cities grants. Regional staff, when reviewing the grant
            work plans, would confirm and document whether the proposed project would
            further the goals, or address an issue of concern, of a LAMP by:

                 Reducing the discharge of untreated stormwater runoff to a Great Lake or
                  a waterway that discharges to a Great Lake.
                Reducing the discharge of sewer system overflows to a Great Lake or a
                  waterway that discharges to a Great Lake.
               	 Reducing the discharge of sediment, nutrients, chemicals, bacteria and/or
                  other contaminants to a Great Lake or a waterway that discharges to a
                  Great Lake.
               	 Reducing threats to public health at beaches or in near-shore areas caused
                  by contaminants including, but not limited to, bacteria, nutrients and
                  chemicals.

            The criteria should ensure the proposed project is linked to the LAMP as provided
            for in the competition exemption. It will also ensure that the proposed project will
            result in an environmental benefit of reducing discharges to the Great Lakes.

            Since Region 5 has already taken action to address the issue noted,
            no recommendation is being made.




14-P-0004                                                                                      3
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                POTENTIAL MONETARY
                                                  RECOMMENDATIONS                                                BENEFITS (in $000s)

                                                                                                    Planned
    Rec.    Page                                                                                   Completion   Claimed    Agreed-To
    No.      No.                        Subject                        Status1   Action Official      Date      Amount      Amount

                                  No recommendations




1    O = Recommendation is open with agreed-to corrective actions pending.

     C = Recommendation is closed with all agreed-to actions completed.

     U = Recommendation is unresolved with resolution efforts in progress.





14-P-0004                                                                                                                              4
                                                                            Appendix A

                                    Distribution
Office of the Administrator
Regional Administrator, Region 5
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Grants and Interagency Agreements Management Division,
       Office of Administration and Resources Management
Deputy Regional Administrator, Region 5
Director, Great Lakes National Program Office, Region 5
Audit Follow-Up Coordinator, Region 5




14-P-0004                                                                            5
